           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


           STATUS OF THE
 SOCIAL SECURITY ADMINISTRATION’S
IMPLEMENTATION OF FISCAL YEAR 2000
    MANAGEMENT LETTER ISSUES

  September 2002     A-15-02-12046
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       SOCIAL SECURITY
MEMORANDUM

Date:      September 20, 2002                                                    Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Status of the Social Security Administration’s Implementation of Fiscal Year 2000
           Management Letter Issues (A-15-02-12046)


           OBJECTIVE

           This is a follow-up audit to the PricewaterhouseCoopers LLP (PwC), “FY 2000
           Management Letter – Part 2, Recommendations to Improve Management Controls and
           Operations Resulting from the Fiscal Year 2000 Financial Statement Audit,” dated
           November 30, 2000. The objective of this follow-up audit was to determine the status
           of corrective action on selected findings and recommendations in the management
           letter referred to above.

           BACKGROUND
           In Fiscal Year (FY) 2000, PwC, an independent Certified Public Accounting firm,
           performed an audit of the consolidated financial statements of the Social Security
           Administration (SSA) as of and for the year ending September 30, 2000. PwC issued
           its Report of Independent Accountants, dated November 30, 2000, which is included in
           SSA’s Performance and Accountability Report for FY 2000. The Office of the Inspector
           General (OIG) monitored the work of PwC.

           The primary objectives of the financial statement audit were to:

           ·   Give an opinion on the SSA financial statements as of and for the year ending
               September 30, 2000, including the related notes.
           ·   Give an opinion as to whether SSA management’s assertion about the effectiveness
               of its internal control was fairly stated.
           ·   Issue a report on SSA’s compliance with applicable laws and regulations.
           ·   Determine whether any material inconsistency was found between the financial
               statements and the accompanying overview and supplemental information
               (including performance measures), and PwC’s understanding of relevant internal
               control for the reported performance measures, its determination as to whether they
               had been placed in operation, and its assessment of the related control risk.
Page 2 – The Commissioner


The audit of SSA’s financial statement also identified conditions that did not have a
material impact on the financial statements. To report these conditions, PwC issued
Management Letters – Part 1 and Part 2 to SSA addressing areas in need of
management attention. Management Letter, Part 1, conveys details of a sensitive
nature to SSA and is, therefore, restricted in its use. It is considered a limited
distribution report. Management Letter – Part 2, contains issues of a general nature
and is not limited in its distribution, but is intended as information for management and
the Inspector General of SSA. In accordance with applicable standards, the
Management Letter issues were not considered by PwC to be material weaknesses or
reportable conditions. Nonetheless, the letters contain both findings and
recommendations requiring management action.

SCOPE AND METHODOLOGY
We performed follow-up audit work on 22 of the 58 recommendations published in
PwC’s FY 2000 Management Letter – Part 2. We selected recommendations from the
FY 2000 report that, in our opinion, were the most important for SSA to implement.
Because the original audit was SSA-wide, the findings and recommendations covered
various offices within SSA. For the specific findings we reviewed, see Appendix A.

To accomplish our objective, we:

·   Validated SSA’s reported status of management action on selected
    recommendations.
·   Determined whether corrective action has addressed the recommendations.

We conducted our review from December 2001 through March 2002, at SSA
Headquarters in Baltimore, Maryland. Our audit was conducted in accordance with
generally accepted government auditing standards.

RESULTS OF REVIEW

Of the 22 recommendations we selected, SSA reported that it completed work on
11 recommendations. SSA agreed with, but had not fully completed corrective actions
on the remaining 11 recommendations.

OIG’s Evaluation of SSA Corrective Actions

We evaluated SSA’s progress and corrective actions by: interviewing the responsible
SSA contact officials; reviewing PwC’s work conducted during the FY 2001 financial
statement audit; and performing audit tests where necessary. In some cases, we relied
on the audit work performed by PwC during the FY 2001 financial statement audit. The
results of our review are as follows:
Page 3 – The Commissioner


                 Audit Results                       Findings/Recommendations


OIG agrees with SSA’s reported status                              19

OIG disagrees with SSA’s reported status                            3

Total                                                              22

Summary of OIG’s Findings

1. PwC recommended SSA complete the drafting and implementation of program
   service center (PSC) change control procedures and consider assigning the
   production environment to non-programmers. SSA agreed with this
   recommendation and reported that work on this recommendation was complete.
   OIG determined that corrective action is not complete. SSA has developed
   standardized change control procedures for the PSCs. However, a systems change
   still needs to be made to limit programmer access to the production environment at
   the PSCs. SSA stated that it expected to complete this change by the end of
   April 2002. However, as of April 2, 2002, this was not completed. See finding
   II.B.2. on pages 3-4 of Appendix A.

2. PwC recommended SSA enhance the current re-certification process by
   implementing a standard profile for each position requiring access to the Financial
   Accounting System (FACTS), and a requirement that access be requested in terms
   of the standard profile. SSA agreed with this recommendation and reported that
   work on this recommendation would be completed by August 31, 2001. OIG
   determined that corrective action was not completed by August 31, 2001. SSA has
   created standard profiles for all of the FACTS users. However, as of April 5, 2002, a
   re-certification had not been completed. It is important that the re-certification
   process is completed to ensure that the level of access currently held by FACTS
   users matches their standard profiles. See finding V.A.5. on pages 28-29 of
   Appendix A.

3. PwC recommended SSA document the process which should be followed regarding
   possible disputes with the Department of Treasury (Treasury) and determine that
   Treasury is in agreement with all aspects of SSA’s procedures of estimating the tax
   revenues and for resolving discrepancies. SSA agreed with this recommendation
   and reported that procedures would be in place by August 31, 2001. SSA did issue
   its accounting manual chapter; however, Treasury has not yet established a
   Memorandum of Understanding (MOU) with SSA. This was scheduled to take place
   during FY 2002. SSA believes the finding should be closed. OIG agrees that SSA
   has completed all work that it can at this time and can close this finding. We
   encourage SSA to monitor Treasury’s actions to formalize the MOU. See finding
   VI.B.1. on pages 40-41 of Appendix A.
Page 4 – The Commissioner


4. PwC recommended that SSA develop and document a comprehensive set of
   policies and procedures regarding the Limitation on Administrative Expenses (LAE)
   program to outline how transactions are processed, allocated, and reported. SSA
   agreed with the recommendation and stated that the documentation would be
   complete by August 31, 2001. OIG determined that corrective action on this
   recommendation was not complete as of January 30, 2002. SSA had drafted LAE
   Accounting and Reporting procedures in August 2001. SSA recently revised the
   draft procedures, but has not completed this effort. See finding VI.C.2. on pages
   44-45 of Appendix A.

CONCLUSION AND RECOMMENDATIONS
Based on our work, we determined that SSA has implemented 8 of the
22 recommendations we selected for examination from PwC’s FY 2000 Management
Letter – Part 2. SSA has not fully implemented the remaining 14 recommendations,
although some actions have been taken to begin addressing these issues. Of the
14 recommendations not fully implemented, only 4 were new recommendations made
during the FY 2000 financial statement audit.

YEAR RECOMMENDATIONS WERE                  NUMBER OF RECOMMENDATIONS
      FIRST REPORTED                        WHERE CORRECTIVE ACTION IS
                                                   INCOMPLETE
            1997                                        7
            1998                                        2
            1999                                        1
            2000                                        4
TOTAL INCOMPLETE                                       14

Since PwC has already made these recommendations in the FY 2000 Management
Letter – Part 2, we will not include duplicate recommendations in this report. However,
SSA should continue to work to bring all of the issues identified by PwC to closure
within the next audit cycle. In addition, in April 2002, PwC issued the FY 2001
Management Letter – Parts 1 and 2, which makes further recommendations for some of
the issues discussed in this report.

AGENCY COMMENTS AND OIG RESPONSE
SSA did not disagree with our findings presented in the formal draft report, but stated
that it has completed work or will shortly complete work on the four recommendations
where OIG disagreed with SSA’s reported status. SSA stated that finding 1 under the
“Results of Review” section of this report will be completed in 6 weeks. SSA stated that
finding 2 was completed on May 6, 2002. However, based on our discussions with
PwC, FY 2002 testing found individuals who had left SSA’s Office of Finance, but still
had access to FACTS. With respect to finding 3, we agree that SSA has completed as
much as it can at this time. Based on SSA’s comments to our formal draft report, we
have reconsidered our position and agree to close this finding. However, we believe
Page 5 – The Commissioner


trust fund tax revenue estimation is a critical process, and we encourage SSA to
monitor Treasury’s efforts to complete an MOU. Lastly, SSA stated that the LAE
accounting policies and procedures discussed in finding 4 are now complete. However,
OIG did not conduct further testing to validate the new accounting procedures.




                                             James G. Huse, Jr.
                                    Appendices
APPENDIX A – Audit Results: FY 2000 Management Letter Part 2

APPENDIX B – Table of Acronyms

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                           Appendix A
Audit Results – FY 2000 Management Letter – Part 2
Report Section/Area       Application Development and Change Control –
                          Scope of Application Programmer Duties

Finding/Rec Number        II.B.1.

PwC Finding               In prior year audits we noted that the existing
                          architecture for the change control process is
                          Endevor software, which records programmatic
                          changes within the Development to Validation
                          process. A program change will then migrate to final
                          production through the use of both SSA home grown
                          and third party software. We previously
                          recommended that SSA establish a QA library where
                          only validated software that is ready to be moved into
                          production will reside. In addition to the establishment
                          of this QA library, SSA was considering expanding
                          the role of Endevor to be included within the
                          Validation to Integration and Integration to Production
                          stages of the program change control process. At this
                          time, SSA is analyzing whether utilizing the additional
                          capabilities of Endevor software would provide the
                          most effective controls. If Endevor's capabilities prove
                          effective, implementation of these capabilities would
                          replace the use of the QA library, provide controlled
                          migration of code between regions and protect source
                          code and load modules from unauthorized tampering.

PwC Recommendation        SSA should expedite its assessment of the potential
                          use of Endevor in the Validation to Integration and
                          Integration to Production phases of the system
                          change control process. If, as a result of this
                          assessment, SSA decides not to use Endevor in lieu
                          of establishing a QA library for this purpose, the
                          agency should continue to work towards
                          implementing the QA library for use in moving
                          validated software into production.

SSA Management Response   We agree. SSA has completed an extensive
                          assessment of a number of options including
                          ENDEVOR to properly maintain the scope of
                          programmer duties in the release of executable
                          applications. An enhanced version of the QA solution
                          recommended by PwC has been approved by
                          development. It will be an automated process which
                          incorporates the SRCOL approval software (see


                                    A-1
                             II.A.2.), a Quality Assurance library, enhancements to
                             SRCOL for movement of executables and establishes
                             various automated alerts to assure the proper
                             separation of duties as noted in prior year audits.

Cross Reference              FY99 Management Letter - Part 2, II.2.A; FY98
                             Management Letter - Part 2, II.2.A; FY97
                             Management Letter - Part 2, III.2.A.

SSA Action Plan              See management response.

Current Status per SSA       ENDEVOR was determined not to be a suitable tool
                             for maintaining separation of duties. However, as
                             noted in the Agency's initial response, a QA solution
                             is being developed. We expect initial rollout to occur
                             in March 2002, and full deployment by September
                             2002.

SSA Target Date              September 1, 2002

End Date – OIG Review        1/10/02

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             incomplete. SSA is ready to start validation of the QA
                             solution it developed (called QA2), which should be
                             complete in the spring of 2002. Rollout is still
                             planned for the fall of 2002.




                                       A-2
Report Section/Area       Application Development and Change Control -
                          Scope of Application Programmer Duties

Finding/Rec Number        II.B.2.

PwC Finding               The current manual change control process in place
                          at PSCs is ineffective. PSC programmers have the
                          ability to develop and maintain code while at the
                          same time being allowed to move programs into the
                          production environment. This increases the risk that
                          programs adversely impacting the normal processing
                          of information (e.g., programs to suppress alerts
                          and/or exceptions), unauthorized programs, and/or
                          unauthorized changes to authorized programs can be
                          implemented into production.

                          SSA Headquarters has formed a productivity
                          workgroup which is addressing this issue through the
                          development of procedures detailing the migration of
                          programs into the production environment, and the
                          change control process surrounding those programs.

PwC Recommendation        The Headquarters productivity workgroup should
                          complete the drafting and implementation of PSC
                          change control procedures. These procedures
                          provide for removing the ability of PSC programmers
                          to migrate new and modified programs into the
                          production environment. In this regard, SSA should
                          consider assigning the production environment to
                          non-programmers, as suggested by the productivity
                          workgroup.

SSA Management Response   We agree. Operations implemented a standardized
                          change control process in the PSCs effective January
                          2, 2001. The PSC local programmers also reached a
                          consensus on limiting programmer access to
                          production software. A workgroup consisting of DCO
                          and DCS personnel in cooperation with local PSC
                          programmers are developing a TOP SECRET
                          process to assure separation of duties. Once
                          implemented, access to the production environment
                          will be limited to non-programming personnel.

Cross Reference           New



                                    A-3
SSA Action Plan              See management response.

Current Status per SSA       The PSCs have developed a change control process
                             that will require review and management signoff prior
                             to moving any new software or modification to
                             existing software from development to production.
                             This process is being used at all seven PSCs.
                             Originals of change control forms will be retained by
                             the Integrity staff at each PSC to document this
                             process.

SSA Target Date              Completed

End Date – OIG Review        1/15/02

OIG Confirmation of Status   Disagree. SSA’s work on this recommendation is
                             incomplete. SSA has developed standardized
                             change control procedures for the processing centers.
                             However, TOP SECRET has not been changed to
                             limit programmer access at the processing centers to
                             the production environment. On April 2, 2002 SSA
                             informed OIG that it expected to complete this
                             change by the end of April 2002.




                                       A-4
Report Section/Area       Service Continuity

Finding/Rec Number        III.2.

PwC Finding               At the time of our fieldwork, SSA had not yet
                          completed documenting a business continuity plan for
                          the FACTS application. Management represented
                          that appropriate business continuity procedures had
                          been developed, but this did not include documenting
                          and distributing to affected staff a list of IT personnel
                          and users responsible for action during operational
                          failure. In addition, no documentation was available
                          confirming that any existing informal procedures had
                          been kept up to date and adequately tested.

                          Without a formally documented business continuity
                          plan that is comprehensive, updated regularly, and
                          periodically tested, management cannot be assured
                          that necessary FACTS processing can be
                          accomplished during an emergency.

PwC Recommendation        SSA should expedite completion of a formally
                          documented business continuity plan for FACTS,
                          ensuring that it is:
                          - Sufficiently comprehensive, addressing both short
                          term and long term interruption to normal processing
                          and providing for such actions as the preparation and
                          distribution of a list of IT personnel and users
                          responsible for action during operational failure;
                          - Updated regularly; and
                          - Periodically tested.

SSA Management Response   We agree. Building upon the existing emergency
                          response procedures for FACTS, SSA will develop a
                          business continuity plan outlining the accounting
                          process and responsible personnel in the event of
                          short and long-term operational failure. We anticipate
                          preparation of the plan by May 1, 2001.

Cross Reference           New

SSA Action Plan           See management response.

Current Status per SSA    The business continuity plan for OFPO systems has
                          been drafted and is undergoing review and revision.


                                   A-5
SSA Target Date              Ongoing

End Date – OIG Review        3/1/02

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             incomplete. SSA developed a business continuity
                             plan for FACTS in August 2001. However, this plan
                             needs to be tested before OIG will consider this
                             recommendation closed. As of the end of our
                             fieldwork, no dates had been set up for testing.




                                       A-6
Report Section/Area       Programmatic Systems – Title II

Finding/Rec Number        IV.A.1.

PwC Finding               SSA has accepted specified levels of access granted
                          to individuals in the field as being excessive in order
                          to provide a high level of customer service.
                          Compensating controls have been implemented to
                          control this access such as the integrity review
                          process. During the FY 2000 audit, PwC noted that
                          the access granted to supervisors allows them to
                          initiate and adjudicate claims. This is a separation of
                          duties weakness that is not compensated for through
                          inclusion in the integrity review process as required in
                          SSA’s “Behind the Scenes” Policy.

PwC Recommendation        SSA should implement a process that would include
                          the independent review of initial claims that are also
                          adjudicated by the same individual, especially if that
                          individual is performing the duties of a supervisor.

SSA Management Response   We agree and are addressing this issue through an
                          alternative approach. SSA has a formal systems life
                          cycle process for the development of all of its
                          applications. The life cycle integrates security into the
                          development of each application and ensures that
                          compensating controls to mitigate opportunity for
                          fraud are put in place before applications move to
                          production.

                          The Enumeration process, a crucial first step for
                          attaining Title II benefits, is subject to variety of
                          compensating controls that include systems access,
                          system enforced separation of duties through a 2-PIN
                          procedure and reviews performed by management,
                          such as CIRP and the Enumeration Sample Review.
                          Moreover, Enumeration is also subjected to oversight
                          by independent organizations, such as OIG, quality
                          reviews and audit trail tracking.

                          Compensating controls also are incorporated into the
                          Title II claims initiation and adjudication processes,
                          significantly reducing opportunity for fraud. Controls
                          specific to Title II claims processes include the
                          Integrated Client Data Base, which provides death


                                    A-7
                             alerts from the Numident. SSA’s claims procedure
                             requires documentary review and are subjected to
                             quality assurance reviews. As with Enumeration, Title
                             II claims are also subjected to the system enforced 2-
                             PIN procedure. In addition, claims are checked
                             against the Numident for date of death and are
                             subjected to integrity reviews and audit tracking.

                             Finally, when implemented, CIRP Release 4 will
                             provide for a review of claims where an employee
                             processed an initial enumeration and adjudicated the
                             same claim. CIRP also ensures an independent
                             review by preventing an individual from reviewing
                             actions which they processed.

Cross Reference              New

SSA Action Plan              See management response.

Current Status per SSA       Selection criteria is under development jointly by
                             DCFAM, OISS; DCO, OPSOS; AND DCS, OSA.

SSA Target Date              To be determined.

Updated Target Date          Complete

End Date – OIG Review        2/12/02

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             complete. PwC was able to test 19 of 22
                             compensating controls over initial and adjudicated
                             claims and determined that these controls are
                             effective. OIG reviewed PwC’s documentation and
                             agrees that these controls are effective. In addition,
                             SSA has scheduled CIRP release 4 for
                             implementation in June 2003. Therefore, OIG
                             believes that SSA has taken appropriate steps to
                             complete work on this recommendation.




                                       A-8
Report Section/Area       Programmatic Systems – Title II

Finding/Rec Number        IV.A.2.

PwC Finding               PwC performed on-line and batch testing of the Title
                          II application as part of its FY 2000 audit. This testing
                          included entering transactions in both MCS and
                          MACADE to ensure adequate editing and data
                          validation checks were performed to ensure data
                          integrity and reduce the risk of fraud. As a result of
                          our work the following situations were identified:
                          - MCS should have provided (but did not) an alert or
                             error message when:
                             - An individual filing for a claim was dead.
                             - A child was filing for a claim, but was married.
                             - The date of adoption of a child was after the
                                numberholder’s date of death.

                          - MACADE should have provided (but did not) an
                            alert or error message when:
                             - The sex code is not validated when entering
                               claim information.
                             - The Primary Insurance Amount (PIA) is not
                               validated to ensure that it is <=$3,000.

PwC Recommendation        SSA needs to enhance its edits and data validation
                          checks for Title II applications, thereby improving data
                          integrity and reducing the risk of fraud. Additionally,
                          the batch process should produce alerts for
                          transactions that are inaccurate or questionable but
                          have not resulted in a surface, inter-screen or intra-
                          screen error message being displayed during on-line
                          data entry.

SSA Management Response   We agree and are evaluating PwC’s findings.
                          Corrective actions will be incorporated into future Title
                          II redesign initiatives.

Cross Reference           New

SSA Action Plan           See management response.

Current Status per SSA    SSA provided PwC with additional information
                          regarding the MACADE findings and it was agreed



                                    A-9
                             that these situations were valid and no action was
                             necessary by SSA.

                             Regarding MCS findings, we agree and expect to
                             schedule changes for a future release.

SSA Target Date              Ongoing

Updated Target Date          Complete

End Date – OIG Review        1/29/02

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             complete. PwC was not able to test all MCS edits in
                             the online environment. However, for the edits that
                             were tested, PwC found no exceptions. In addition, a
                             MCS release was completed in September 2001 that
                             includes corrections made to the edits PwC was not
                             able to test. PwC was able to test MACADE edits
                             online with no exceptions. SSA should continue to
                             ensure that alerts are working correctly in the
                             situations described in PwC’s finding, as PwC will be
                             testing these again for FY 2002.




                                       A-10
Report Section/Area          Programmatic Systems – Earnings Record
                             Maintenance System (ERMS)

Finding/Rec Number           IV.B.1.

PwC Finding                  SSA has developed a key initiative tactical plan and
                             schedule entitled “Reduce Earnings Suspense File’s
                             Future Growth and Current Size” to address the
                             suspense file and reconciliation issue identified in
                             1997. This plan, initially drafted in July 1998, is
                             currently being revisited for changes, which SSA had
                             hoped to complete by December 1999. During the FY
                             2000 audit, a contract was awarded to a third party to
                             provide assistance and guidance in reducing the
                             suspense file and implement a process that would
                             maintain future suspense postings at a manageable
                             level.

PwC Recommendation           SSA should await the results of the contractor’s
                             efforts on the suspense file project and then use them
                             to implement a solution to reduce the suspense file
                             and improve the process for handling future suspense
                             postings.

SSA Management Response      SSA is still waiting on the contractor’s final report.
                             When the report is received, SSA will assess the
                             results and determine what actions are appropriate.

Cross Reference              FY99 Management Letter - Part 2, III.2.A; FY98
                             Management Letter - Part 2, III.3.A; FY97
                             Management Letter - Part 2, V.3.A.1.

SSA Action Plan              A final action plan will be developed based on the
                             outcome of the contractor’s efforts.

Current Status per SSA       SSA recently received the contractor’s final report and
                             is in the process of evaluating its findings and
                             recommendations.

SSA Target Date              To be determined.

End Date – OIG Review        2/25/02

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             incomplete. SSA has not yet selected an approach


                                       A-11
option from the contractor’s final report. The Office of
Quality Assurance (OQA) is evaluating the report and
expects to complete their evaluation by October 31,
2002.




        A-12
Report Section/Area       Programmatic Systems – Death Alert, Control and
                          Update System (DACUS)

Finding/Rec Number        IV.D.2.

PwC Finding               As PwC has noted in prior audits, SSA’s current
                          practice of obtaining death data does not ensure that
                          this data is entered into DACUS accurately, timely,
                          and only once. External entities under contract to
                          SSA to supply death data are paid 60 cents per
                          transaction. SSA could pay more than once for the
                          same death data because DACUS contains no edit
                          routine to identify instances where two or more data
                          providers submit the same death notice. These data
                          providers are contractually required to submit death
                          notices within 3 months of the month of death. The
                          majority of these entities are still preparing this data
                          manually prior to transmission, accounting for the
                          extended time period allowed for data submission.
                          SSA is moving forward with the implementation of
                          electronic death certificates to reduce the timeframe
                          for submission. Upon the completion of the pilot
                          program for this process, SSA expects to deliver final
                          contract standards to the states by March 2001 and
                          to phase in all states over the next five to ten years.

PwC Recommendation        SSA should look for ways to expedite its initiatives for
                          reducing the amount of time required by outside
                          sources to submit death notifications, such as use of
                          the electronic death certificate.

SSA Management Response   We agree. We concur with the recommendation to
                          explore initiatives to obtain death data more timely
                          from outside agencies. SSA is providing support for
                          the Electronic Data Registration (EDR) pilot activities
                          now being developed by partially funding the States
                          to develop and implement their electronic systems.
                          Under EDR, SSA will receive a death report from the
                          States within 24 hours or within 5 days of the filed
                          certificate.

Cross Reference           FY99 Management Letter - Part 2, III.4.B; FY98
                          Management Letter - Part 2, III.5.B.

SSA Action Plan           See management response.


                                    A-13
Current Status per SSA       SSA plans to award contracts to some of the States
                             in September 2001. Under EDR, SSA will receive a
                             death report from the States within 24 hours or within
                             5 days of the person’s death. Part of SSA’s
                             requirement is to obtain a verified SSN at the first
                             point of collection in the EDR process. For those
                             verified SSN’s, SSA will take immediate action on
                             those death reports.

                             DCS recently received from DCDISP two new
                             Initiative Information Documents outlining a
                             permanent Internet-based solution and changes that
                             would designate an EDR as a first priority report.
                             Meetings/discussions to schedule the Initiative
                             Information Documents began on July 19, 2001 and
                             the Plan Chairs for the affected 5 Year Plans are
                             working to determine timeframes for the planning and
                             analysis on this project.

SSA Target Date              To be determined.

End Date – OIG Review        1/29/02

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             incomplete. SSA has made considerable progress
                             towards closing this recommendation. It awarded two
                             contracts to New Hampshire and Washington, D.C. to
                             begin receiving electronic death reports and plans to
                             eventually award contracts to all states. In addition,
                             SSA is planning a pilot for Electronic Death
                             Registration to begin in August 2002.




                                       A-14
Report Section/Area   Programmatic Systems – Computer Assisted Audit
                      Techniques

Finding/Rec Number    IV.F.Overview

PwC Finding           Overview

                      Our 2000 work confirmed that data reliability/integrity
                      weaknesses still exist within SSA’s automated files
                      and records. While such problems can result from
                      application change control weaknesses or application
                      design weaknesses, they can also be the result of
                      minimal effort made to remove incorrect data
                      remaining on files after identified software code
                      weaknesses have been corrected. These data
                      anomalies could impact future processing or add to
                      SSA’s workload by requiring extra effort to resolve
                      incorrect data.

                      We performed selected tests, using audit software, on
                      some of SSA’s primary data files. This testing was
                      restricted to the eleventh segment of the Numident,
                      MBR, and SSR files, and to the 1999 earnings data
                      posted for persons in that segment. A projected total
                      for all segments is presented in parenthesis for each
                      test listed.

                      Although SSA has shown some improvement in this
                      area, examples of the data integrity weaknesses we
                      identified during our 2000 testing are discussed
                      below.

PwC Recommendation    General Recommendations

                      SSA should:
                      - Analyze its automated databases to identify key
                      data integrity conditions that should apply within and
                      across databases.
                      - Design and implement data integrity checking
                      programs for the full production databases to identify
                      the total population of records with potential data
                      integrity problems.
                      - Investigate, identify, and rectify the root causes of
                      data integrity problems.




                              A-15
                          - Ensure appropriate automated and manual controls
                          are in place to prevent problems from recurring,
                          including periodically running the data integrity
                          checking programs as a detective control.
                          - Investigate and correct instances of invalid data on
                          individual records that may affect payment status.
                          Refer any suspicious transactions to the OIG for
                          investigation.
                          - Improve data administration for systems with regard
                          to applying consistent definitions and formats for
                          commonly used data elements.

                          For those instances where the data integrity problems
                          noted may be the result of historical problems now
                          prevented by recent SSA modernization efforts, the
                          agency should ensure that the existence of this data
                          will not adversely affect the payment status of any
                          individual.

SSA Management Response   We agree. However, there are no major changes
                          planned for Client between now and the end of the
                          calendar year (2001) that would impact this
                          recommendation. With all available resources
                          devoted to high priority initiatives in the TII and TXVI
                          areas, not to mention legislation and Internet, there
                          are none available to work on Client-related
                          enhancements.

                          Long-range plans exist to develop the Client system
                          to strengthen data integrity. Automated database
                          clean-up efforts, whenever technically feasible, are
                          included in these plans. One example is the planned
                          posting of proven dates of birth on the MBR and SSR
                          to the Numident. This will not only reduce date of birth
                          discrepancies, but also facilitate future postings of
                          dates of death since there will be fewer non-match
                          situations. This activity is currently unscheduled in the
                          Enumeration/Client 5-Year Plan; resource issues may
                          or may not impact the originally anticipated
                          implementation target date of late 2001; we will know
                          more by March 2001.

SSA Action Plan           See management response.

Current Status per SSA    Recent and upcoming Client activity to improve data
                          integrity and system communication includes:


                                  A-16
                   · With the 9/2001 T2R2.1 release, certain
                  miscellaneous data corrections coming in through the
                  MONET system will also update Client and the
                  Numident. This includes corrections to claimants own
                  SSN plus changes to DOB, DOB proof and SEX.
                   · Also with the 9/2001 T2R2.1 release, the T2R
                  batch process will update Client with language
                  preference changes.
                   · A service request has been submitted to OSDD to
                  clean up certain data anomalies remaining on Client
                  after software changes had been incorporated. Due
                  to higher priority initiatives, OSDD resources have not
                  yet been available to institute the cleanup activity.
                   · A contractor review of SSA death processing is
                  currently being done with an eye toward a future
                  overhaul of such processing. The Client database
                  and/or screens will be integral to any resulting new
                  process and will help to enable sharing and integrity
                  of death data.
                   · Client is slated to play an important role in the
                  proposed Customer Service Record (CSR) project.
                  This system also is intended to interface with SSA's
                  application systems and promote data sharing and
                  hence, greater data integrity.

SSA Target Date   Ongoing

OIG Comment       See Finding/Rec Numbers IV.F.1., IV.F.2., and IV.F.4.
                  for specific findings, management response, and OIG
                  conclusions. The Overview is not considered a
                  separate recommendation by OIG.




                          A-17
Report Section/Area       Programmatic Systems – Computer Assisted Audit
                          Techniques

Finding/Rec Number        IV.F.1.

PwC Finding               In 1997, a comparison of the MBR and Numident
                          identified 819 records (projected total 16,380) where
                          the individual was alive and in a current pay status on
                          the MBR but listed as dead on the Numident.

                          In 1998, the comparison yielded similar results, with
                          944 records (projected total 18,880) identified.

                          In 1999, our comparison again yielded similar results,
                          with 867 records (projected total of 17,340) identified.

                          The 2000 comparison showed a slight improvement,
                          with a yield of 706 records (projected total of 14,120).

PwC Recommendation        Refer to the General Recommendations in the
                          Overview above.

SSA Management Response   F.1 and F.2. We agree. In November 2000, we
                          implemented a DACUS change that will automatically
                          delete the Numident death posting when a person is
                          reinstated to benefit status on the MBR and/or SSR
                          after having been erroneously terminated for death.
                          The former second input needed to DACUS was the
                          primary cause of these inconsistencies. We are
                          currently developing a program to identify all records
                          on the MBR where payment has been reinstated and
                          the Numident retains the death information. We will
                          then delete the erroneous death. We expect to
                          complete this by March. We will then develop a
                          similar matching and update for the SSR; we do not
                          yet have a target date. We expect that this will
                          eliminate the problem.

Cross Reference           FY99 Management Letter - Part 2, III.6.A; FY98
                          Management Letter - Part 2, III.6.Overview and A.-D.;
                          FY97 Management Letter - Part 2, III.6.A. and A1. -
                          A4.

SSA Action Plan           See management response.



                                    A-18
Current Status per SSA       Actions to identify MBR records where payment was
                             reinstated but the Numident retained the death
                             information was completed for one segment of the
                             Numident in March 2001. The results of this match
                             are being analyzed and will be presented to
                             management. Actions to address SSR/Numident
                             inconsistencies remain in development.

SSA Target Date              To be determined.

End Date – OIG Review        1/29/02

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             incomplete. Progress has been made, as PwC found
                             only eight discrepant cases after the date of the
                             DACUS change in the MBR segment it tested. In
                             addition, SSA now has several projects under way to
                             help decrease the number of discrepancies
                             encountered. In the future, PwC plans to address the
                             cause of these discrepancies in a new
                             recommendation that is being developed. SSA is still
                             completing work to manually correct MBR/Numident
                             discrepancies where the date of death is 1990 or
                             later.




                                       A-19
Report Section/Area       Programmatic Systems – Computer Assisted Audit
                          Techniques

Finding/Rec Number        IV.F.2.

PwC Finding               In 1997, a comparison of the SSR and Numident
                          identified 60 records (projected total 1200) where the
                          individual was alive and in a current pay status on the
                          SSR but listed as dead on the Numident.

                          In 1998, the comparison yielded similar results, with
                          66 records (projected total 1320) being identified.

                          In our 1999 testing we identified 49 (projected total
                          980) records meeting this test criteria.

                          In 2000, the comparison identified 79 (projected total
                          of 1580) individuals that were alive and in current pay
                          status on the SSR, but listed as dead on the
                          Numident.

PwC Recommendation        Refer to the General Recommendations in the
                          Overview above.

SSA Management Response   F.1 and F.2. We agree. In November 2000, we
                          implemented a DACUS change that will automatically
                          delete the Numident death posting when a person is
                          reinstated to benefit status on the MBR and/or SSR
                          after having been erroneously terminated for death.
                          The former second input needed to DACUS was the
                          primary cause of these inconsistencies. We are
                          currently developing a program to identify all records
                          on the MBR where payment has been reinstated and
                          the Numident retains the death information. We will
                          then delete the erroneous death. We expect to
                          complete this by March. We will then develop a
                          similar matching and update for the SSR; we do not
                          yet have a target date. We expect that this will
                          eliminate the problem.

Cross Reference           FY99 Management Letter - Part 2, III.6.B; FY98
                          Management Letter - Part 2, III.6.Overview and A.-D.;
                          FY97 Management Letter - Part 2, III.6.A. and A1. -
                          A4.



                                    A-20
SSA Action Plan              See management response.

Current Status per SSA       Actions to identify MBR records where payment was
                             reinstated but the Numident retained the death
                             information was completed for one segment of the
                             Numident in March 2001. The results of this match
                             are being analyzed and will be presented to
                             management. Actions to address SSR/Numident
                             inconsistencies remain in development.

SSA Target Date              To be determined.

End Date – OIG Review        1/29/02

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             incomplete. PwC found discrepancies after the date
                             of the DACUS change in the SSR segment it tested.
                             SSA now has several projects under way to help
                             decrease the number of discrepancies encountered.
                             SSA is still completing work to manually correct
                             SSR/Numident discrepancies where the date of death
                             is 1990 or later.




                                       A-21
Report Section/Area       Programmatic Systems – Computer Assisted Audit
                          Techniques

Finding/Rec Number        IV.F.4.

PwC Finding               In 1997, a comparison of the MBR, SSR, and
                          Numident identified a large number of corresponding
                          records with significant differences in dates of birth.
                          Using a tolerance of >3 years for comparison
                          purposes, we noted 13,998 differences between the
                          MBR and the Numident, and 20,254 between the
                          SSR and Numident.

                          The number of discrepancies improved in 1998;
                          however, we still identified 6,433 differences between
                          the MBR and the Numident, and 711 between the
                          SSR and Numident.

                          In 1999 the numbers improved some more with 6,078
                          differences between the MBR and the Numident, and
                          579 between the SSR and Numident.

                          In 2000, the number of records with a date of birth
                          difference > 3 years between the MBR and the
                          Numident continued to improve, dropping to 5,389.
                          However, we also identified 1,041 records with a date
                          of birth difference > 3 years between the SSR and
                          Numident, a significant increase over the 1999
                          results.

PwC Recommendation        Refer to the General Recommendations in the
                          Overview above.

SSA Management Response   We agree with this recommendation. We continue to
                          plan to resolve the condition by updating the
                          Numident with the proven MBR and SSR dates of
                          birth. However, higher priority workloads continue to
                          keep this project as Unscheduled in the 5 Year Plan.

Cross Reference           FY99 Management Letter - Part 2, III.6.D; FY98
                          Management Letter - Part 2, III.6.Overview and A.-D.;
                          FY97 Management Letter - Part 2, III.6.A. and A1. -
                          A4.

SSA Action Plan           See management response.


                                    A-22
Current Status per SSA       No change.

SSA Target Date              To be determined.

End Date – OIG Review        1/29/02

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             incomplete. SSA indicated that there has been no
                             status change since the last update. Clean up of
                             discrepant cases is still unscheduled in the 5-Year
                             Plan.




                                       A-23
Report Section/Area       Administrative Systems – Financial Accounting
                          System (FACTS)

Finding/Rec Number        V.A.2.

PwC Finding               Past audits determined that additional changes in the
                          front-end edit criteria are required to reduce the
                          number of suspense items. Without these changes,
                          the number of suspense items would grow to a level
                          that would impair SSA’s ability to clear items in a
                          timely manner. This, in turn, would increase the risk of
                          inaccurate data and inflated dollar values in
                          suspense.

                          SSA implemented four fixes during FY 1999 to
                          address this issue. During FY 2000 the agency also
                          implemented a Third Party Draft vendor table in the
                          field offices that is to reduce the number of rejections
                          by providing valid EINs that will be used to edit input
                          prior to transmission to Headquarters.

                          Release 1.1 of the Third Party Draft system has been
                          received by 1300 field offices. About 435 offices have
                          already converted to the new system. The field offices
                          can now update the FACTS vendor tables using a
                          manual process. Release 2.0, which was expected in
                          October 2000, will allow a more direct link to the
                          FACTS vendor tables.

                          At the time of our follow-up work, the implementation
                          of the Third Party Draft vendor table had little impact
                          on the volume of suspense transactions. We
                          acknowledge, however, that this initiative probably
                          had not been in place long enough to fairly assess its
                          effectiveness.

PwC Recommendation        SSA should monitor the volume of suspense file
                          transactions to ensure that the changes in the edit
                          criteria required to improve suspense processing,
                          along with the addition of a Third Party Draft vendor
                          table, meet the expected results of reducing the
                          number of suspense items.

SSA Management Response   We agree. In mid-December, Release 2.0 of TPPS
                          occurred with completion of the rollout by early


                                   A-24
                             February 2001. With TPPS release 2.0, a Vendor
                             Maintenance Form (VMF) is generated when a new
                             payee is entered in the payee table. While it is
                             expected this software release will substantially
                             reduce the number of TPPS errors, it is too premature
                             to make that assessment.

Cross Reference              FY99 Management Letter - Part 2, IV.1.B; FY98
                             Management Letter - Part 2, IV.1.B.; FY97
                             Management Letter - Part 2, V.3.E.

SSA Action Plan              See management response.

Current Status per SSA       Completed

SSA Target Date              Completed

End Date – OIG Review        1/28/02

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             complete. SSA has improved the processing for third
                             party draft suspense items and demonstrated that the
                             number of third party draft suspense errors continues
                             to be low.




                                       A-25
Report Section/Area       Administrative Systems – Financial Accounting
                          System (FACTS)

Finding/Rec Number        V.A.3.

PwC Finding               There is a need for more complete tracking and
                          reporting on the activities related to resolving open
                          obligations. Past audits identified that open
                          obligations were not being de-obligated in a timely
                          manner and de-obligated obligations were not
                          adequately documented. Consequently, funding
                          levels may be incorrectly stated, resulting in the
                          potential for inappropriate use of valuable resources.

                          In FY 1999, SSA implemented procedures to
                          document liquidated obligations. However, per the
                          Open Obligation Report, a significant number of long
                          standing unliquidated obligations remain outstanding,
                          including numerous obligations from fiscal years
                          1994, 1995, 1996, and 1997. Open obligations are
                          not being de-obligated in a timely manner in part
                          because current procedures do not address the timely
                          liquidation of obligations.

PwC Recommendation        SSA should enhance current policies and procedures
                          to ensure that the de-obligation process is operating
                          effectively and timely. An overall aged balance should
                          be established as of the end of the fiscal year and all
                          activities by the Office of Finance should be
                          accumulated into the monthly Report of Validations to
                          ensure that management has a complete picture of
                          the status of open obligations and the activity related
                          to resolving them.

SSA Management Response   We agree. Additional research demonstrates that
                          large portions of prior fiscal year open obligations are
                          Reimbursable Work Authorizations (RWA's) with the
                          General Services Administration (GSA). To that end,
                          we now receive from GSA an electronic feed of open
                          RWA's to enhance the validation process. In addition,
                          beginning January 2001, SSA developed an
                          accounting system query to produce an aging report
                          for open obligations. This report is produced and
                          analyzed on a monthly basis.



                                   A-26
                             In addition, based upon our experience of validating
                             RWA's with GSA, we plan to look at other categories
                             of obligations to improve the validation process.

Cross Reference              FY99 Management Letter - Part 2, IV.1.E; FY98
                             Management Letter - Part 2, IV.1.F.

SSA Action Plan              See management response.

Current Status per SSA       Completed

SSA Target Date              Completed

End Date – OIG Review        3/1/02

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             complete. PwC found that statistics are being
                             reported for open obligations acted on and cleared
                             and that the validation and reduction of open
                             obligations are being tracked. SSA was able to
                             provide evidence that it is making definite progress in
                             validating open obligations. By the end of November
                             2001, SSA had reviewed all Headquarters
                             reimbursable work authorizations and all interagency
                             agreements for FY 1997. However, OIG may revisit
                             this issue in the future to ensure open obligations
                             continue to be addressed in a timely manner.




                                      A-27
Report Section/Area       Administrative Systems – Financial Accounting
                          System (FACTS)

Finding/Rec Number        V.A.5.

PwC Finding               The current FACTS re-certification process used to
                          validate an individual’s access to the system needs to
                          be enhanced. Of 39 FACTS user profiles sampled, 12
                          had access that was not necessary for the
                          performance of their duties. There were some
                          indications that access had been retained from a prior
                          position. The FACTS re-certification process needs to
                          ensure that access is only granted to those with a
                          need.

PwC Recommendation        SSA should enhance their current re-certification
                          process by implementing the following:
                          - A standard profile for each position requiring access
                          to FACTS and a requirement that access be
                          requested in terms of the standard profile.
                          - A re-certification listing showing the access of each
                          person and a requirement that each supervisor justify
                          access that is not consistent with the standard profile.

SSA Management Response   We agree. SSA has begun to develop standard
                          profiles for each position that accesses FACTS. In
                          addition, a re-certification listing will be developed as
                          described in the recommendation.

Cross Reference           New

SSA Action Plan           See management response.

Current Status per SSA    FACTS Standard Profiles are near completion. Once
                          complete, a recertification of the profiles will occur
                          and is targeted for 8/31/01.

SSA Target Date           August 31, 2001

End Date – OIG Review     2/28/02




                                    A-28
OIG Confirmation of Status   Disagree. SSA’s work on this recommendation is
                             incomplete. SSA has created standard profiles for all
                             of the FACTS users. However, as of April 5, 2002 a
                             re-certification had not been completed. It is
                             important that the re-certification process is
                             completed to ensure that the level of access currently
                             held by FACTS users matches their standard profiles.




                                     A-29
Report Section/Area       Other – Title 2/Title 16 Issues

Finding/Rec Number        VI.A.1.

PwC Finding               SSA has established preventive and detective
                          controls to ensure accurate payments to
                          beneficiaries. Two of the main detective controls are
                          the Index of Dollar Accuracy (IDA) review and the
                          Stewardship review. Through these reviews, SSA
                          successfully confirms the accuracy, and in certain
                          cases, the inaccuracy of benefit payments. When
                          payment discrepancies are identified, the appropriate
                          Program Service Center (PSC) or Field Office (FO) is
                          notified to follow-up on the matter. Our testing
                          confirmed that these notifications were being sent.
                          However, our testing also indicated that the
                          PSCs/FOs inconsistently resolve these payment
                          discrepancies. Furthermore, we noted current SSA
                          policy does not provide a mechanism to reasonably
                          assure that the noted discrepancies are ultimately
                          resolved by the PSCs/FOs.

PwC Recommendation        We recommend that SSA update its current policies
                          related to the IDA and Stewardship reviews to provide
                          a means of ensuring that all payment discrepancies
                          noted during these reviews are resolved by the
                          PSCs/FOs in a timely manner.

SSA Management Response   We agree. Existing Quality Review Manual (Title II)
                          and Quality Review Manual System (Title XVI)
                          procedures call for the quality reviewers to obtain
                          master beneficiary/supplemental security record
                          queries 30 days after sending a payment error
                          feedback report to the PSCs/FOs to determine if the
                          corrections have been made. If the corrections have
                          not been made, the reviewers are to follow up with
                          PSC/FO. If there is no response to the followup
                          request in 15 days, the Regional Director for Quality
                          Assurance and Performance Assessment (ROQA) is
                          to request the assistance of the Assistant Regional
                          Commissioner for Management, Operations and
                          Systems to have the PSC or FO correct the case.
                          These procedures can also be found in POMS (the
                          Title XVI procedure in DG 16590.040 and the Title II
                          procedure in DG 16073.047). We believe that the


                                    A-30
                             procedures are adequate for ensuring that payment
                             errors are corrected; however, these procedures have
                             not been followed in all instances. We are sending a
                             reminder to all ROQA directors emphasizing the
                             importance of closely following the established QRM
                             and QRMS procedures for ensuring that payment
                             errors are corrected by the PSCs and FOs.

Cross Reference              New

SSA Action Plan              See management response.

Current Status per SSA       In January 2001, a reminder was sent to all ROQA
                             Directors emphasizing the importance of closely
                             following the established QRM and QRMS
                             procedures for ensuring that payment errors are
                             corrected by the PSCs and FOs.

SSA Target Date              Completed

End Date – OIG Review        3/1/02

OIG Confirmation of Status    Agree. SSA’s work on this recommendation is
                             complete. In FY 2001, no cases were found where
                             OQA failed to ensure that the PSC or FO corrected a
                             payment error found by OQA. In addition, OQA has
                             instituted periodic monitoring of ROQA adherence to
                             Quality Review Manual and Quality Review Manual
                             System procedures regarding correction of payment
                             errors.




                                      A-31
Report Section/Area       Other – Title 2/Title 16 Issues

Finding/Rec Number        VI.A.6.

PwC Finding               Individuals incarcerated are generally ineligible for
                          Title II and Title XVI benefits. One of the tools SSA
                          uses to identify incarcerated recipients is the Prisoner
                          Update Processing System (PUPS). During our audit,
                          we sampled information from the PUPS and
                          compared it against information in the SSR to
                          determine whether SSI payments were appropriately
                          suspended when an individual was incarcerated.
                          During our testing, we noted several instances when
                          no release date was recorded in the PUPS database
                          for incarcerated individuals even though they were in
                          current pay status on the SSR. POMS section SI
                          02310.076 requires that the PUPS database be
                          updated with the release date and the effective date
                          of reinstatement if an individual meets the condition
                          for reinstatement. However, it appears that SSA
                          employees in the Field Offices are not updating the
                          PUPS in all instances. Failure to appropriately update
                          both the PUPS and SSR could result in improper
                          payments being made to SSI recipients.

PwC Recommendation        We recommend that SSA enforce its requirement that
                          the PUPS database be updated with the release date
                          and effective date of reinstatement if an individual
                          meets the condition for reinstatement. We also
                          recommend that SSA run logic queries between the
                          PUPS database and the SSR to identify individuals
                          who should be ineligible for payment based on
                          information in the PUPS database.

SSA Management Response   We agree. The system allows for the collection of the
                          data mentioned. We will continue to monitor technical
                          compliance.

                          In regard to running logic queries between PUPS
                          database and the SSR, it should be mentioned that
                          the SSR Online Query already presents an alert if the
                          record is also on the PUPS database.

                          Also, OQA is scheduled to conduct another review of
                          prisoner processing in Fiscal Year 2001 and will


                                    A-32
                             advise Operations of any processing deficiencies they
                             find. Additional training will be provided on any
                             problem areas identified by OQA.

Cross Reference              FY99 Management Letter - Part 2, V.12; FY98
                             Management Letter - Part 2, V.R.

SSA Action Plan              See management response.

Current Status per SSA       DCO will continue to monitor for technical
                             compliance. DCO will also submit a request to the
                             Office of Systems to create a semi-annual compare
                             operation to check the PUPS data base for release
                             dates on all reinstatements following Prisoner
                             suspension and to generate alerts for FO resolution.

                             OQA is planning to conduct a followup review of
                             prisoner alert development in calendar 2001. Results
                             of the review, expected late in FY 2002, will be
                             shared with Operations. Additional training will be
                             provided on any problem areas identified by OQA.

SSA Target Date              Late FY 2002.

End Date – OIG Review        1/24/02

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             incomplete. The Office of Systems will not be able to
                             create a semi-annual compare operation to check
                             PUPS for release dates on all reinstated benefit
                             claims following Prisoner suspension. Based on our
                             discussions with SSA, an analysis was performed and
                             the semi-annual compare operation is not a feasible
                             solution to the issue reported by PwC. In addition,
                             the review of prisoner alert development has not yet
                             begun. Based on the delays SSA is encountering
                             during their work, the target date of “Late 2002” no
                             longer appears to be reasonable.




                                       A-33
Report Section/Area       Other – Title 2/Title 16 Issues

Finding/Rec Number        VI.A.8.

PwC Finding               During previous audits, we noted that the four
                          balancing reports generated from the Time Share
                          Option (TSO) system by the Division of Benefit
                          Certification Branch (DBCA) indicated an out-of-
                          balance condition. During fiscal year 2000, SSA reset
                          the balances on the Group Totals report and
                          temporarily the reports balanced. However, because
                          the exact cause of the out-of-balance condition was
                          not determined, the reports currently indicate a
                          continued out-of-balance condition at September 30,
                          2000. Specifically, the Group Totals report indicated
                          that 11,275 fewer payments totaling $4,012,972.99,
                          were made than payments reported on the other
                          three reports. DBCA believes that they have identified
                          the reason for this out-of-balance condition. Our
                          review disclosed that SSA created a task group to
                          identify the cause of and solution to the out-of-
                          balance condition, but actions to fully resolve this
                          matter have not been taken. Failing to properly
                          balance the reports from the TSO system could
                          cause inaccurate payments to be made to recipients.

PwC Recommendation        SSA should continue its efforts to identify the exact
                          cause for this out-of-balance condition, modify the
                          system as needed, so out-of-balance conditions are
                          reconciled in a timely manner.

SSA Management Response   We agree. Currently we have formed a cross-
                          functional workgroup and are in the Planning and
                          Analysis (P&A) stage of evaluating the problem. P&A
                          should be completed in March 2001. Since Group
                          Totals do not produce any transactions, only
                          summary totals, it has been impossible to perform the
                          type of reconciliation recommended when an out-of-
                          balance condition exists. A record-level database
                          needs to be established to perform this validation.
                          Evaluation of the various options the Office of
                          Systems may need to pursue (e.g., possibly a rewrite
                          of the entire system) based on the workgroup's
                          recommendation will occur after P&A is completed.



                                    A-34
Cross Reference              FY99 Management Letter - Part 2, V.7; FY98
                             Management Letter - Part 2, V.H.; FY97 Management
                             Letter - Part 2, V.2.G.

SSA Action Plan              See management response.

Current Status per SSA       DBCA formed a cross-functional workgroup to
                             evaluate the problem. While in the Planning and
                             Analysis (P&A) stage the group was temporarily
                             suspended in January 2001 because the Office of
                             Systems Design and Development (OSDD) was
                             forced to allocate its resources to a Modernized
                             Overpayment/Underpayment Reporting System
                             (MOURS)-related project.

SSA Target Date              To be determined

End Date – OIG Review        1/10/02

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             incomplete. SSA has submitted an IT proposal to
                             correct the out-of-balance condition for the SSI
                             payment files. Corrections are still needed for other
                             files that feed into the Group Totals report.




                                       A-35
Report Section/Area   Other – Title 2/Title 16 Issues

Finding/Rec Number    VI.A.10.

PwC Finding           During our testing of the Index of Dollar Accuracy
                      (IDA) and Stewardship reviews performed by the
                      Office of Quality Assurance (OQA) we noted the
                      following weaknesses which impair the effectiveness
                      of the reviews.
                      - OQA needs to update its RSDI Quality Review
                      Manual (QRM) to include detailed guidance related to
                      performing Index of Dollar Accuracy (IDA) and
                      Stewardship reviews. During our testing we noted that
                      the lack of detailed guidance has resulted in
                      inconsistencies among regions in the way that the
                      reviews are performed.
                      - OQA needs to update the QRM to include new
                      existing policies and procedures. During our testing
                      we noted that the QRM does not include the new
                      policies and procedures regarding the use of the
                      SSA-2930, RSI/DI Quality Review Case Analysis –
                      Sampled Number Holder or the SSA 2931, RSI/DI
                      Quality Review Case Analysis – Auxiliaries/Survivors.
                      In addition, our testing disclosed several instances
                      where OQA reviewers improperly excluding cases
                      from review based on the existence of the “dual
                      entitlement stratum”, which has not been in place
                      since FY 1996.
                      - OQA does not have written policies or procedures
                      in place to reasonably assure that cases are excluded
                      from the IDA and Stewardship reviews based on valid
                      programmatic/business reasons. During our audit we
                      noted several instances where OQA reviewers
                      improperly excluded sample items from review. The
                      lack of such policies and procedures increases the
                      risk that errors could go undetected because sample
                      items were improperly excluded from testing.

PwC Recommendation    We recommend that SSA update the RSDI QRM to
                      reflect current policies and procedures and to include
                      detailed guidance for performing IDA and
                      Stewardship reviews. We further recommend that
                      SSA establish and implement written policies and
                      procedures to reasonably assure the propriety of IDA
                      and Stewardship cases excluded from review.


                                 A-36
SSA Management Response       We agree. To the extent possible, exclusion criteria
                             are written into the Automated Sample Selection
                             Process (ASSP). Where manual exclusions occur,
                             they are made in accordance with established
                             guidelines. Should situations outside the guidelines
                             occur, regional staffs consult with central office before
                             excluding a case.

Cross Reference              FY99 Management Letter - Part 2, V.2; Various.

SSA Action Plan              See management response.

Current Status per SSA       The current effort to replace the IDA reviews with a
                             transaction analysis review procedure to make the
                             process a more useful tool for Operations to improve
                             accuracy has deferred our plans to completely
                             overhaul the QRM procedures. Instead of a complete
                             overhaul, we are now planning a QRM release to
                             cover key changes, once the revised transaction
                             review procedures are finalized after testing and
                             piloting. The planned QRM release is not expected
                             before mid to late FY 2002.

SSA Target Date              Late FY 2002

End Date – OIG Review        2/7/02

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             incomplete. The transaction analysis review to
                             replace IDA reviews was approved by Acting
                             Commissioner Massanari. SSA still plans to have a
                             QRM release covering key procedural changes
                             completed during FY 2002.




                                      A-37
Report Section/Area       Other – Title 2/Title 16 Issues

Finding/Rec Number        VI.A.15.

PwC Finding               During our overall review of the Continuing Disability
                          Review (CDR) process that was in place in FY 2000,
                          and more specifically the CDR profiling and scoring
                          process, we noted that the Office of Disability did not
                          maintain full documentation of the CDR process or of
                          the input data sets and variables used in fitting the
                          prediction models. Without this documentation, the
                          CDR profiling and scoring programs are at risk of not
                          having sufficient information available for review
                          which would support the profile scores and the overall
                          program. In addition, we noted that the CDR profiling
                          program is continually under development without
                          version control procedures and without detailed
                          cataloging and comparison of results based on the
                          difference variables used in the different models.

PwC Recommendation        We recommend that SSA maintain documentation on
                          all aspects of the CDR process, in addition to the
                          profiling and the scoring programs, including input
                          data sets and all variables used as candidates in the
                          prediction models.

                          It is our understanding that SSA recently entered into
                          a contract with an outside vendor to assist them with
                          this effort, thus we recommend that SSA continue the
                          implementation of this effort. We also recommend
                          that since profiling validation activities are ongoing,
                          version control also should be implemented. SSA
                          should also consider establishing a fixed schedule for
                          developmental analysis and algorithm updates. Final
                          study results should be catalogued, including the data
                          sets used to define the algorithms actually used to
                          establish the models.

SSA Management Response   We agree that documentation of the profiling and
                          scoring process could be more complete and note
                          that we have already begun developing version
                          control methodology, which we plan to implement in
                          FY '01. We also plan to transfer the development of
                          profiling models to the PC environment during FY '01.
                          This will simplify the archiving procedure and satisfy


                                     A-38
                             the recommendation made in this area. With regard
                             to the recommendation to consider establishing a
                             fixed schedule for developmental analysis and
                             algorithm updates, we do not believe this is practical,
                             at least, at this time. Currently, we adjust and refine
                             our scoring model to accommodate significant
                             legislative, policy, or procedural changes, as they
                             occur. We believe this approach is a better use of our
                             limited resources. Lastly, it should be noted that it has
                             always been our practice to retain the data sets used
                             to define the algorithms used in our profiling models
                             and that, beginning in FY 2000, we increased the
                             retention period to three years. We believe our
                             current retention system provides adequate
                             documentation of the changes and enhancements to
                             our profiling models without adding an unnecessary
                             burden to the process.

Cross Reference              FY99 Management Letter - Part 2, V.13.

SSA Action Plan              Develop version control methodology for profiling and
                             scoring process.
                             Transfer development of profiling models to PC
                             environment.
                             Retain data sets used to define algorithms in profiling
                             for 3 years.

Current Status per SSA       Data set retention for 3 years – completed.
                             Remainder – in progress.

SSA Target Date              September 2001

End Date – OIG Review        2/26/02

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             complete. Through the new profiling system, SSA
                             has ensured that documentation is maintained on all
                             aspects of the CDR process. SSA also confirmed its
                             intention to maintain data sets for a minimum of 3
                             years.




                                       A-39
Report Section/Area       Other - Revenue

Finding/Rec Number        VI.B.1.

PwC Finding               Prior to SSA’s final wage certification, the Department
                          of Treasury is responsible for transferring estimated
                          amounts for employment taxes collected to the SSA
                          trust funds. These transfers are made based on
                          revenue estimations completed by SSA’s Office of the
                          Chief Actuary (OCACT). SSA and Treasury have
                          never formally documented the responsibilities of
                          each party involved in this process, nor documented
                          the course of action which would be followed should a
                          dispute arise concerning the transfer of funds from
                          Treasury to the SSA Trust Funds. Because this
                          process has not been documented, disputes between
                          the two parties could delay the transfers should an
                          error or dispute ever arise. SSA has documented its
                          own procedures of estimating and certifying the
                          wages in its Accounting Manual, however the
                          responsibilities of each party involved in this process
                          have not been documented, nor has a dispute
                          resolution process been documented.

PwC Recommendation        We recommend that SSA clearly document the
                          process which should be followed regarding possible
                          disputes with Treasury and determine that Treasury is
                          in agreement with all aspects of SSA’s procedures of
                          estimating the tax revenues and for resolving
                          discrepancies.

SSA Management Response   We agree with modification. On December 15, 2000,
                          the Department of the Treasury released a review of
                          its duties and responsibilities in the administration of
                          trust funds and other government accounts with
                          investment authority (or investment funds). The report
                          contains several recommendations one of which is to
                          clearly define Treasury and program agency roles
                          and responsibilities for investment fund management
                          through standardized agreements. These standard
                          agreements will define policies and procedures and
                          allocation of roles and responsibilities. Where
                          needed, the agreements will be customized. Treasury
                          plans to initially develop these agreements in the next
                          6-9 months with 5 Federal agencies, including SSA.


                                    A-40
                             The procedures developed by SSA to document the
                             roles and responsibilities for estimating the transfer of
                             collected employment taxes to the SSA trust funds
                             will be incorporated into the agreement with Treasury.

Cross Reference              FY99 Management Letter - Part 2, V.3; FY98
                             Management Letter - Part 2, V.D.; FY97 Management
                             Letter - Part 2, V.2.I.

SSA Action Plan              See management response.

Current Status per SSA       These procedures are currently being modified to the
                             SSA intra-net publication process. Expected release
                             is 8/31/01.

SSA Target Date              August 31, 2001

End Date – OIG Review        3/1/02

OIG Confirmation of Status   Agree. SSA did issue its accounting manual chapter,
                             however Treasury has not yet established a
                             Memorandum of Understanding (MOU) with SSA.
                             This was scheduled to take place sometime during
                             FY 2002, but had not occurred as of the end of our
                             fieldwork. SSA believes the finding should be closed.
                             OIG agrees that SSA has completed all work that it
                             can at this time and can close this finding. We
                             encourage SSA to monitor Treasury’s actions to
                             formalize the MOU.

Report Section/Area          Other - Revenue

Finding/Rec Number           VI.B.2.

PwC Finding                  The majority of revenue recognized by SSA and
                             transferred to the Trust Funds, relates to employment
                             tax revenue which is estimated by the Office of the
                             Chief Actuary. Previously, we have noted that system
                             documentation for the two estimation models used by
                             OCACT, the REVEARN and MODEEM models, was
                             lacking. We also noted that individuals within OCACT
                             had not been sufficiently cross-trained to allow for
                             succession planning. During our current audit, we
                             noted that OCACT has taken several steps to train
                             individuals to run both estimation models. However,


                                       A-41
                             as required by the Office of Management and Budget,
                             systems documentation regarding these two models
                             and cross-checks to ensure estimation constancy
                             have not been formally documented.

PwC Recommendation           We recommend that OCACT document these models
                             in accordance with OMB Circulars A-123 and OMB
                             Circular A-127, including the use of cross-checks to
                             ensure model constancy.

SSA Management Response      We agree. However, although we agree that
                             additional documentation may be desirable, we
                             cannot implement the recommendation at this time
                             due to higher priority work. Our highest priority is to
                             our basic mission to produce cost estimates of the
                             present-law and proposed OASDI programs. This
                             requires us to commit our resources to performing
                             and documenting data analyses, and maintaining and
                             updating the computer models used to produce these
                             estimates. While the additional documentation may
                             be valuable for the purpose of informing external
                             groups, current documentation has been satisfactory
                             for internal use in producing high-quality cost
                             estimates.

Cross Reference              FY99 Management Letter - Part 2, V.8 and V.14;
                             FY98 Management Letter - Part 2, V.I.; FY97
                             Management Letter - Part 2, VI.A1 and A2.

SSA Action Plan              On May 3, 2001 SSA provided documentation to the
                             auditors that we believe should close this
                             recommendation.

Current Status per SSA       While the documentation may not be exactly what the
                             auditors recommended, we believe it is the
                             documentation appropriate for SSA processes.

SSA Target Date              Completed

End Date – OIG Review        2/25/02

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             complete. SSA provided sufficient documentation to
                             PwC for the REVEARN and MODEEM models. In
                             addition, OCACT now has plans in place to update
                             model documentation every year. OCACT also plans


                                       A-42
to train a second individual on the REVEARN model
during 2002. OCACT should ensure that these items
are completed as planned, as PwC will review this
issue again during the FY 2002 financial statement
audit.




       A-43
Report Section/Area       Other – Financial Reporting

Finding/Rec Number        VI.C.2.

PwC Finding               The Office of Finance lacks a formal set of
                          documented policies and procedures regarding the
                          accounting treatment for transactions processed
                          through the Limitation on Administrative Expenses
                          (LAE) fund. Informal policies have been developed
                          over the years, but a comprehensive document
                          outlining the budgetary and proprietary aspects of this
                          program, along with the allocation of expenses, and
                          reporting requirements has not been completed.
                          During the audit, we noted that for financial reporting
                          purposes, SSA applies a series of one-sided
                          adjustments to financing sources and cumulative
                          results of operations on the program-level Balance
                          Sheets and Statements of Changes in Net Position
                          and establishes intra-agency payables/receivables to
                          counteract the effect of uneven LAE allocations. We
                          believe that these adjustments, along with other
                          adjustments made to correct previous errors related
                          to LAE are necessary due to the fact that SSA has
                          not developed a formal set of policies and procedures
                          for processing, allocating, and reporting LAE
                          transactions.

PwC Recommendation        We recommend that SSA develop and document a
                          comprehensive set of policies and procedures
                          regarding the LAE program. These policies and
                          procedures should outline how LAE transactions are
                          to be processed, allocated, and reported. This
                          document should address budgetary as well as
                          proprietary issues, and should be used as a reference
                          tool to reasonably assure that LAE transactions are
                          handled appropriately.

SSA Management Response   We agree. SSA plans to complete the documentation
                          of the LAE program by March 30, 2001.

Cross Reference           New

SSA Action Plan           See management response.




                                    A-44
Current Status per SSA       The procedures to document accounting for LAE are
                             undergoing review. Target completion date is
                             8/31/01.

SSA Target Date              August 31, 2001

End Date – OIG Review        1/30/02

OIG Confirmation of Status   Disagree. SSA’s work on this recommendation was
                             incomplete. SSA drafted LAE Accounting and
                             Reporting procedures in August 2001. SSA recently
                             revised the draft procedures, but has not completed
                             this effort as of the end of our fieldwork.




                                       A-45
Report Section/Area       Other – Financial Reporting

Finding/Rec Number        VI.C.7.

PwC Finding               The Debt Collection and Improvement Act (DCIA) of
                          1996 authorizes SSA to use several additional
                          procedures to collect Title II overpayments, if the
                          overpayments are not remitted to SSA within a
                          specified timeframe. In previous management
                          recommendation letters, we have noted that SSA
                          currently is not using several of the procedures
                          outlined in the DCIA. However, we also noted that
                          SSA is currently working on several systems
                          initiatives which will allow the Agency to track and re-
                          coup overpayments more effectively and to assess
                          various penalties outlined in the DCIA. Most of these
                          improvements are scheduled for implementation
                          during the next 12 – 24 months.

PwC Recommendation        We recommend that SSA continue its plans to
                          implement policies and procedures to assess
                          penalties when needed, efficiently track amounts due
                          to SSA, and finally to fully collect amounts due to
                          SSA.

SSA Management Response   We agree. SSA is currently developing the two debt
                          collection tools with the highest expected debt
                          collection payoffs. The two tools are Cross Program
                          Recovery, or the collection of a Title XVI debt from
                          any Title II benefits payable to the debtor, and
                          Administrative Wage Garnishment, which is the
                          collection of a delinquent debt from the wages of the
                          debtor. Cross Program Recovery was authorized by a
                          different legislation than DCIA, and SSA estimates
                          that it will yield $115 million in collections over 5
                          years. Implementation is scheduled for March 2001.
                          SSA is also engaged in developing administrative
                          wage garnishment, and has completed the required
                          planning and analysis. Implementation is scheduled
                          for 2001.

                          In the year 2000 SSA also developed the expansion
                          of our existing credit bureau reporting and
                          administrative offset programs to include Title XVI
                          debts (which was authorized by the Foster Care



                                    A-46
                         Independence Act of 1999). These tools will also be
                         implemented in March 2001.

                         All other debt collection tools (Federal salary offset,
                         private collection agencies and interest charging) will
                         be developed in turn.

                         In addition, we have one comment regarding the
                         wording of PwC's Finding on item V1.C.7. The third
                         sentence (beginning with the words "However, we
                         also. . .") should be changed as follows: “However,
                         we also noted that SSA is currently working on
                         several systems initiatives which will allow the Agency
                         to collect overpayments more effectively.”

Cross Reference          FY99 Management Letter - Part 2, V.9; FY98
                         Management Letter - Part 2, V.M.; FY97 Management
                         Letter - Part 2, VI.B.

SSA Action Plan          See management response.

Current Status per SSA   Currently, SSA has three title XVI projects that are
                         fully developed and two are in active development.
                         The three fully developed projects are Cross-Program
                         Recovery, Administrative Offset and Credit Bureau
                         Reporting.

                         Cross-Program Recovery is the collection of a Title
                         XVI debt from any Title II benefits payable to the
                         debtor. Cross-Program Recovery was authorized by
                         a different legislation than DCIA, and SSA estimates
                         that it will yield $115 million in collections over 5
                         years. In the year 2000 SSA also developed the
                         expansion of our existing administrative offset and
                         credit bureau reporting programs to include Title XVI
                         debts (which was authorized by the Foster Care
                         Independence Act of 1999). These new tools will be
                         implemented after the final regulations are published.

                         Two debt collections tools are in active development.
                         Administrative Wage Garnishment (AWG), which is
                         the collection of a delinquent debt from the wages of
                         the debtor, is in the development stage and the
                         Notice of Proposed Rule Making for AWG has been
                         written. SSA is also developing Federal Salary
                         Offset.


                                 A-47
                             Development of the remaining tools, Interest
                             Charging and the use of Collection Agencies, will
                             begin upon the completion of the activities currently
                             underway. The use of these tools will enhance SSA's
                             ability to collect delinquent debt in the future.

SSA Target Date              Ongoing

End Date – OIG Review        2/8/02

OIG Confirmation of Status   Agree. SSA’s work on this recommendation is
                             incomplete. SSA implemented three new debt
                             collection tools at the end of February 2002 –
                             administrative offset and credit bureau reporting for
                             Title XVI overpayments and the Cross-Program
                             Recovery to collect Title XVI overpayments from the
                             debtor’s Title II benefits. The other tools continue to
                             be worked on.




                                      A-48
                                                         Appendix B

Table of Acronyms
ASSP       Automated Sample Selection Process
AWG        Administrative Wage Garnishment
CDR        Continuing Disability Review
CIRP       Comprehensive Integrity Review Process
CSR        Customer Service Record
DACUS      Death Alert, Control and Update System
DBCA       Division of Benefit Certification Branch
DCDISP     Deputy Commissioner for Disability and Income Security Programs
DCFAM      Deputy Commissioner for Finance, Assessment and Management
DCIA       Debt Collection Improvement Act
DCO        Deputy Commissioner for Operations
DCS        Deputy Commissioner for Systems
DI         Disability Insurance
DOB        Date of Birth
EDR        Electronic Death Registration
EIN        Employer Identification Number
ERMS       Earnings Record Maintenance System
FACTS      Financial Accounting System
FO         Field Office
FY         Fiscal Year
GSA        General Services Administration
IDA        Index of Dollar Accuracy
IT         Information Technology
LAE        Limitation on Administrative Expenses
MACADE     MADCAP Direct Data Entry
MADCAP     Manual Adjustment Credit and Award Process
MBR        Master Beneficiary Record
MCS        Modernized Claims System
MONET      Miscellaneous Online Edited Transaction
MOURS      Modernized Overpayment/Underpayment Reporting System
NUMIDENT   A query using the SSN to obtain the name of the number’s owner
OASDI      Old Age, Survivors and Disability Insurance
OCACT      Office of the Chief Actuary
OFPO       Office of Financial Policy and Operations
OISS       Office of Information Systems Security
OMB        Office of Management and Budget
OPSOS      Office of Public Services and Operations Support
OIG        Office of the Inspector General


                               B-1
OSA     Office of Systems Analysis
OQA     Office of Quality Assurance
OSDD    Office of Systems Design and Development
P&A     Planning and Analysis
PC      Personal Computer
PIA     Primary Insurance Amount
PIN     Personal Identification Number
POMS    Program Operations Manual System
PSC     Program Service Center
PUPS    Prisoner Update Processing System
PwC     PricewaterhouseCoopers LLP
QA      Quality Assurance
QRM     Quality Review Manual
QRMS    Quality Review Manual System
ROQA    Regional Office of Quality Assurance and Performance
        Assessment
RSDI    Retirement and Survivors Disability Insurance
RSI     Retirement Survivors Insurance
RWA     Reimbursable Work Authorization
SRCOL   System Release Certification Online
SSA     Social Security Administration
SSI     Supplemental Security Income
SSN     Social Security Number
SSR     Supplemental Security Record
TII     Title II of the Social Security Act
TPPS    Third Party Payment System
TSO     Time Share Option
TXVI    Title XVI of the Social Security Act
VMF     Vendor Maintenance Form




                            B-2
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 4, 2002                                                      Refer To:   S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Status of the Social Security
           Administration’s Implementation of Fiscal Year 2000 Management Letter Issues”
           (A-15-02-12046)—INFORMATION


           We appreciate the OIG’s efforts in conducting this review. Our comments on the report are
           attached.

           Staff questions can be referred to Mark Welch on extension 50374.

           Attachment:
           SSA Comments




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “STATUS OF THE SOCIAL SECURITY ADMINISTRATION’S
IMPLEMENTATION OF FISCAL YEAR 2000 MANAGEMENT LETTER ISSUES”
(A-15-02-12046)

Thank you for performing this review of Social Security Administration (SSA) actions to resolve
issues presented in prior PricewaterhouseCoopers LLP (PwC) reports relating to SSA
management controls and operations. The annual PwC audit of our financial statements is an
important component in the overall management of the programs administered by SSA, and we
are working to resolve issues presented by PwC as soon as possible.

We have the following comments on the status of SSA actions relating to the four prior PwC
findings highlighted in this OIG report:

Finding II.B.2. (pages 3-4 of Appendix A)

PwC recommended SSA complete the drafting and implementation of program service center
(PSC) change control procedures and consider assigning the production environment to non-
programmers. SSA agreed with this recommendation and reported that work on this
recommendation was complete. OIG determined that corrective action is not complete. SSA has
developed standardized change control procedures for the PSCs. However, a systems change
still needs to be made to limit programmer access to the production environment at the PSCs.
SSA stated that it expected to complete this change by the end of April 2002. However, as of
April 2, 2002, this was not completed.

Comment

The requirement to implement the creation of profiles to establish the appropriate separation of
duties for the PSCs is under review by SSA systems security staff. Once approved,
implementation should occur within 6 weeks.

Finding V.A.5. (pages 28-29 of Appendix A)

PwC recommended SSA enhance the current re-certification process by implementing a standard
profile for each position requiring access to the Financial Accounting System (FACTS), and a
requirement that access be requested in terms of the standard profile. SSA agreed with this
recommendation and reported that work on this recommendation would be completed by
August 31, 2001. OIG determined that corrective action was not completed by August 31, 2001.
SSA has created standard profiles for all of the FACTS users. However, as of April 5, 2002, a
re-certification had not been completed. It is important that the re-certification process is
completed to ensure that the level of access currently held by FACTS users matches their
standard profiles.

Comment

Recertification of FACTS profiles was completed on May 6, 2002. The FACTS standard
profiles were completed on April 11, 2002. Therefore, we believe SSA has satisfied this audit
finding.
                                               C-2
Finding VI.B.1. (pages 40-41 of Appendix A)

PwC recommended SSA document the process which should be followed regarding possible
disputes with Treasury and determine that Treasury is in agreement with all aspects of SSA’s
procedures of estimating the tax revenues and for resolving discrepancies. SSA agreed with this
recommendation and reported that procedures would be in place by August 31, 2001. OIG
determined that corrective action was not complete as of March 1, 2002. SSA did issue its
accounting manual chapter; however, Treasury has not yet met with SSA to establish a
Memorandum of Understanding (MOU). This is scheduled to take place sometime during FY
2002. We feel that SSA should change its target date for completion of work on this
recommendation to “To be determined – pending action by Treasury.” Although SSA has
completed all work that it can at this time, SSA still has a responsibility to ensure that Treasury’s
MOU encompasses all aspects of SSA’s procedures.

Comment

We are pleased that the OIG recognizes that SSA has fulfilled its portion of this audit finding.
However, we do not agree that SSA should be held responsible for actions pending by an outside
entity, in this instance the Department of the Treasury. We recently learned that Treasury has
once again delayed development of user agreements with the 15 trust fund managed agencies
(including SSA) until FY 2003, focusing instead on agencies that maintain their own
investments. Treasury plans to conduct a survey of the trust fund managed agencies prior to
development of any agreements. However, if Treasury development of the various agency
agreements is once again re-prioritized by Treasury, SSA will be unfairly held responsible in the
meantime. Since the roles and responsibilities of SSA and Treasury are already documented and
will be subsumed in Treasury's agreement, we see no need for this audit finding to remain open.

Finding VI.C.2. (pages 44-45 of Appendix A)

PwC recommended that SSA develop and document a comprehensive set of policies and
procedures regarding the Limitation on Administrative Expenses (LAE) program to outline how
transactions are processed, allocated, and reported. SSA agreed with the recommendation and
stated that the documentation would be complete by August 31, 2001. OIG determined that
corrective action on this recommendation was not complete as of January 30, 2002. SSA had
drafted LAE Accounting and Reporting procedures in August 2001. SSA recently revised the
draft procedures, but has not completed this effort.
Comment

The accounting policies and procedures for the LAE program have been completed and
implemented.




                                                 C-3
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Frederick C. Nordhoff, Director, Financial Audit Division, (410) 966-6676
   Victoria Vetter, Deputy Director, Financial Audit Division, (410) 966-9081

Acknowledgments

In addition to those named above:

   Kristen Schnatterly, Auditor-in-Charge
   Cheryl Robinson, Writer/Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-15-02-12046.
                            DISTRIBUTION SCHEDULE

                                                                             No. of
                                                                            Copies

Commissioner of Social Security                                                1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                              1
Assistant Inspector General for Investigations                                 1
Assistant Inspector General for Executive Operations                           3
Assistant Inspector General for Audit                                          1
Deputy Assistant Inspector General for Audit                                   1
 Director, Systems Audit Division                                              1
 Director, Financial Management and Performance Monitoring Audit Division      1
 Director, Operational Audit Division                                          1
 Director, Disability Program Audit Division                                   1
 Director, Program Benefits Audit Division                                     1
 Director, General Management Audit Division                                   1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                     1
Chairman, Committee on Ways and Means                                          1
Ranking Minority Member, Committee on Ways and Means                           1
Chief of Staff, Committee on Ways and Means                                    1
Chairman, Subcommittee on Social Security                                      2
Ranking Minority Member, Subcommittee on Social Security                       1
Majority Staff Director, Subcommittee on Social Security                       2
Minority Staff Director, Subcommittee on Social Security                       2
Chairman, Subcommittee on Human Resources                                      1
Ranking Minority Member, Subcommittee on Human Resources                       1
Chairman, Committee on Budget, House of Representatives                        1
Ranking Minority Member, Committee on Budget, House of Representatives         1
Chairman, Committee on Government Reform and Oversight                         1
Ranking Minority Member, Committee on Government Reform and Oversight          1
Chairman, Committee on Governmental Affairs                                    1
Ranking Minority Member, Committee on Governmental Affairs                     1
Chairman, Committee on Appropriations, House of Representatives                1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
 Incorporated                                                                 1
Treasurer, National Council of Social Security Management Associations,
 Incorporated                                                                 1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        96
                  Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure
that program objectives are achieved effectively and efficiently. Financial audits, required
by the Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements
fairly present the Agency’s financial position, results of operations and cash flow.
Performance audits review the economy, efficiency and effectiveness of SSA’s programs.
OA also conducts short-term management and program evaluations focused on issues of
concern to SSA, Congress and the general public. Evaluations often focus on identifying
and recommending ways to prevent and minimize program fraud and inefficiency, rather
than detecting problems after they occur.

                             Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General
(OIG) by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic planning
function and the development and implementation of performance measures required by
the Government Performance and Results Act. OEO is also responsible for performing
internal reviews to ensure that OIG offices nationwide hold themselves to the same
rigorous standards that we expect from SSA, as well as conducting investigations of OIG
employees, when necessary. Finally, OEO administers OIG’s public affairs, media, and
interagency activities, coordinates responses to Congressional requests for information,
and also communicates OIG’s planned and current activities and their results to the
Commissioner and Congress.



                               Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to
fraud, waste, abuse, and mismanagement of SSA programs and operations. This includes
wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                        Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector
General on various matters, including: 1) statutes, regulations, legislation, and policy
directives governing the administration of SSA’s programs; 2) investigative procedures
and techniques; and 3) legal implications and conclusions to be drawn from audit and
investigative material produced by the OIG. The Counsel’s office also administers the civil
monetary penalty program.
